Report No. D-2010-060                     June 11, 2010




        Drawdown and Reset of Equipment in Iraq -
                Operation Clean Sweep
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits

To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ESC                           Sustainment Command (Expeditionary)
FRAGO                         Fragmentary Order
FOB                           Forward Operating Base
MNC-I                         Multi-National Corps–Iraq
MRT                           Mobile Redistribution Team
TEU                           Twenty Foot Equivalent Units
USF-I                         U. S. Forces–Iraq
                               INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DR IVE 

                            AR LI NGTON , VIRGINIA 22202-4704 



                                                                             June 11 , 2010


MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, U.S FORCES- IRAQ
               COMMANDER, 13 th SUSTAINMENT COMMAND
                  (EXPEDITIONARY)

SUBJECT: Drawdown and Reset of Equipment in Iraq-Operation Clean Sweep (Report
         No . D2010-060)


We are providing this report for your information and use. We performed this audit in
response to a U.S . Central Command request. We considered management comments on
a draft of this report in preparing the [mal report.

The Chief of Staff, U.S . Central Command endorsed and forwarded comments from the
U.S. Forces-Iraq, Joint Staff Logistics Directorate. Management comments conformed
to the requirements of DOD Directive 7650.3; therefore, additional comments are not
required.

We appreciate the courtesies extended to the staff. Please direct questions to
Carol N. GOlman at (703) 604-9179 (DSN 312-664-91 79).



                                  Daniel R. Blair, CPA 

                          Principle Assistant Inspector General 

                                      for Auditing 

 Report No. D-2010-060 (Project No. D2009-D000JB-0280.000)                         June 11, 2010

                 Results in Brief: Drawdown and Reset of
                 Equipment in Iraq—Operation Clean Sweep
                                                         required mandatory participation in Operation
What We Did                                              Clean Sweep.
We evaluated DOD’s plans for Operation Clean             Mandatory participation is key to Operation
Sweep to determine whether roles,                        Clean Sweep effectiveness. When units pack and
responsibilities, and lines of reporting were well       ship excess equipment without MRT assistance,
defined and documented; the plans                        the risk of injury to personnel at the receiving
comprehensively addressed equipment                      activity is increased and the accountability and
accountability, visibility, and disposition; and         visibility of the equipment is delayed. We
whether realistic milestones were established.           identified containers at Camp Arifjan, Kuwait,
We also determined whether Operation Clean               that were not packed and shipped by the MRTs,
Sweep was effectively implemented in                     which were poorly packed and contained items
accordance with those plans.                             such as weapons and hazardous material. In
                                                         addition, those items were not brought to record
What We Found
                                                         until reaching Camp Arifjan, delaying the
Fragmentary Order (FRAGO) 1022, “Operation               accountability and visibility of equipment that
Clean Sweep,” October 26, 2009, defines the              might be needed elsewhere, including
roles, responsibilities, and procedures necessary        Afghanistan.
for processing excess equipment in support of the
Iraq drawdown.                                           What We Recommend
                                                         We recommend the Commander, U.S. Forces–
According to documents provided by the
                                                         Iraq, revise and reissue FRAGO 0436 to require
13th Sustainment Command (Expeditionary)
                                                         mandatory participation in Operation Clean
(ESC), the Mobile Redistribution Teams (MRT)
                                                         Sweep.
processed and re-established accountability for
about $768 million of excess equipment from              We recommend that the Director, U.S. Forces–
October 2009 to April 10, 2010. We commend               Iraq, Joint Staff Logistics Directorate issue
the 13th ESC and the MRTs for those results.             FRAGOs directing participation in Operation
                                                         Clean Sweep to those units not participating.
However, not all units supported the MRT
mission, limiting the effectiveness of Operation         We recommend the Commander, 13th ESC, revise
Clean Sweep. During our site visits to four              and reissue FRAGO 0094 to remove the option to
Forward Operating Bases, we identified units that        decline participation in Operation Clean Sweep
denied the MRTs access to their excess                   and to also report unit participation data to the
equipment, did not comply with FRAGO                     Director, U.S. Forces–Iraq, Joint Staff Logistics
requirements to sort their excess equipment              Directorate.
before the MRT’s arrival, and did not provide            Management Comments and Our
adequate logistical support to the MRTs. This            Response
occurred because FRAGO 1022 did not require
mandatory participation in Operation Clean               The Chief of Staff, U.S. Central Command,
Sweep and the MRT’s mission and goals were               endorsed and forwarded comments from the U.S.
not communicated to all units and commanders.            Forces–Iraq, Joint Staff Logistics Directorate.
                                                         The comments were responsive to the
During our audit, U.S. Forces–Iraq and 13th ESC          recommendations. Please see the
issued two FRAGOs which addressed our                    recommendations table on the back of this page.
communication concerns; however, neither

                                                     i
Report No. D-2010-060 (Project No. D2009-D000JB-0280.000)        June 11, 2010

Recommendations Table 

              Management                     Recommendations      No Additional
                                            Requiring Comment   Comments Required


Commander, U.S. Forces–Iraq                                             1.
Director, U.S. Forces–Iraq, Joint Staff                                 2.
Logistics Directorate
Commander, 13th Sustainment Command                                  3.a., 3.b.
(Expeditionary)




                                              ii
Table of Contents

Introduction	                                                  1      


      Objectives                                               1      

      Background                                               1      

      Review of Internal Controls                              4


Finding. Operation Clean Sweep	                                5


      Management Actions                                       9

      Recommendations, Management Comments, and Our Response   11 


Appendices

      A. 	Scope and Methodology 	                              12 

             Prior Coverage                                    13     

      B. Fragmentary Order 1022 Requirements		                 14 


Management Comments

U.S. Central Command 	                                         15 

U.S. Forces–Iraq      	                                        16


Introduction
Objectives
Our overall audit objective was to evaluate DOD’s plans for the drawdown and reset 1 of
equipment in Iraq. Specifically, our objective was to determine whether:

            roles, responsibilities, and lines of reporting were well defined and
             documented;
            plans comprehensively addressed issues including equipment accountability,
             visibility, and disposition; and
            the plans established realistic milestones for the initiation and completion of
             drawdown activities.

On November 2, 2009, we re-announced the audit to add an objective to review the
implementation of the drawdown plans.

This report is one in a series of reports concerning the plans for the drawdown and reset of
equipment in Iraq. This report focuses on Operation Clean Sweep and the role of the
Mobile Redistribution Teams (MRT) in that operation. Future reports will focus on the
roles of the Supply Support Activities and the Defense Reutilization Marketing Offices.

Background
We performed this audit in response to a request from the Commander, U.S. Central
Command, to focus oversight on asset accountability to ensure U.S.-funded assets are
properly accounted for and that there is a process for the proper transfer, reset, or disposal
of assets in conjunction with the responsible drawdown of U.S. forces and equipment from
Iraq.

According to the Security Agreement between the governments of the United States and
Iraq, all U.S. Forces will withdraw from Iraqi territory no later than December 31, 2011.
By the end of August 2010, 65,000 U.S. combat forces will have withdrawn from Iraq,
reducing U.S. troop levels to about 50,000. In addition to the drawdown of personnel,
DOD must also determine the disposition of its equipment, which can include equipment
as small as ammunition to as large as Mine Resistant Ambush Protected vehicles.
According to U.S. Forces–Iraq (USF-I), 2 there were about 3.4 million pieces of military
equipment in Iraq in May 2009. The amount of military equipment was reduced to about
3 million items by January 2010, and is expected to be reduced to 1 million items by


1
  Reset represents a series of actions taken to restore units to a level of combat capability. It encompasses
replacing equipment, restoring equipment’s useful life, and correcting equipment faults at and above the field
level.
2
  On January 1, 2010, Multi-National Force–Iraq; Multi-National Corps–Iraq; and Multi-National Security
Transition Command–Iraq, combined into USF-I. Throughout this report, we will attribute actions to the
performing organization.

                                                      1

September 2010. In an effort to identify and re-establish accountability of excess 

equipment in anticipation of the drawdown of U.S. Forces from Iraq, 

Multi-National Corps–Iraq (MNC-I) initiated Operation Clean Sweep in October 2009. 


Operation Clean Sweep
MNC-I Fragmentary Order (FRAGO) 1022, “Operation Clean Sweep,” October 26, 2009,
established a process for expediting the identification, accountability, and turn-in of excess
U.S. equipment in support of the Iraq drawdown. The FRAGO states that “Operation
Clean Sweep” will increase the ability for U.S. military units to:

            identify excess equipment and supplies,
            clear waste in the battle space, and
            reduce the U.S. operational footprint as early as possible.

The 13th Sustainment Command (Expeditionary) (ESC) is the executive agent of Operation
Clean Sweep. The 13th ESC has command and control of all logistic operations in the Iraqi
theater and its focus is to coordinate, synchronize, and execute the drawdown.

Mobile Redistribution Teams
FRAGO 1022 requires the 13th ESC to establish MRTs to assist units with the
identification, classification, and disposition of excess equipment. The MRTs are
comprised of personnel with backgrounds in supply, maintenance, automated logistics,
armament repair, ammunition handling, and transportation, and have the technical
knowledge to handle equipment such as weapons and ammunition. MRT personnel attend
training to learn how to identify serviceable and unserviceable equipment and the
procedures necessary to process that equipment for reuse or disposal. Once on a Forward
Operating Base (FOB), 3 the MRTs have three objectives:

            account for all containers 4 on a FOB by executing a 100 percent count of the
             containers,
            provide assistance to identify, sort, process and turn-in excess equipment at
             each units’ location, and
            recover and ship 463L pallets 5 to the nearest aerial ports of embarkation.




3
  A FOB is a U.S. military installation that serves mainly as a staging area for tactical operations. A FOB
may support a battalion, multiple brigades, and smaller elements. Other types of U.S. military installations in
Iraq include Contingency Operating Bases, Contingency Operating Sites, and Contingency Operating
Locations. For the purpose of this report, we will use FOB to refer to all these types of installations.
4
  A container is a portable, reusable metal box, commonly twenty foot in length, designed and used for
transporting equipment on land and sea. These containers are also used by the military for storage within the
Iraq Theater of operations.
5
  Pallets designed to interface with the cargo restraint systems of military aircraft and also used for moving
material via surface transportation.

                                                      2

Excess Equipment
The equipment processed during Operation Clean Sweep is non-mission essential excess
equipment that is not accounted for on unit 6 or theater property books. This excess
equipment includes serviceable and unserviceable equipment. Serviceable equipment is in
a “like new” condition and can be immediately returned to the supply system for use by
other U.S. Forces. Unserviceable equipment is either repairable and can be shipped to a
depot for maintenance, cannot be repaired, or is no longer authorized for use and must be
disposed of. In Iraq, serviceable and unserviceable equipment is processed as described in
Table 1.

                               Table 1. Excess Equipment Processing

    Equipment Type            Equipment Condition                              Destination 
Equipment with                       Serviceable                 Shipped to Local Supply Support
National Stock                       Unserviceable                Activities in the Iraqi Theater
Numbers 7                             repairable                                    
                                     Serviceability
                                      unknown 
Equipment with or                    Unserviceable                   Shipped to the Defense
without National                      non-repairable            Reutilization and Marketing Office
Stock Numbers                        Unserviceable no                   or to local landfill 
                                      longer authorized 
Equipment without                    Serviceable                     Shipped to the Theater
National Stock                       Unserviceable                 Redistribution Center, Camp
Numbers                               repairable                          Arifjan, Kuwait 
                                     Serviceability
                                      unknown 




6
  For purposes of this report, unit refers to U.S. military organizations stationed on a FOB; a unit could be a 

Battalion, Brigade, or smaller size element. 

7
  A National Stock Number is a unique series of numbers applied to an item of supply that is repeatedly 

procured, stocked, stored, issued, and used throughout the federal supply system. 


                                                        3

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance programs are operating as intended and
to evaluate the effectiveness of the controls. We identified an internal control weakness
for USF-I. Specifically, USF-I did not have adequate internal controls to ensure that all
equipment shipped to the Theater Redistribution Center, Camp Arifjan, Kuwait, was
properly sorted, segregated, packed, blocked, and braced for shipment. Implementing
recommendations in the Finding will increase the use of MRT assistance which should
reduce the number of unsafe and unsorted containers of excess equipment received at the
Theater Redistribution Center. We will provide a copy of the report to the senior official
responsible for internal controls in USF-I.




                                            4

Finding: Operation Clean Sweep
FRAGO 1022, “Operation Clean Sweep,” October 26, 2009, defines operational roles and
responsibilities and the procedures necessary for processing excess U.S. equipment in
support of the Iraq drawdown. We commend the 13th ESC and the MRTs for the results
achieved as of April 10, 2010. According to documentation provided by 13th ESC, the
MRTs, from October 2009 to April 10, 2010, processed 15,437 Twenty Foot Equivalent
Units (TEUs) 8 and identified and re-established accountability for excess U.S. equipment
valued at about $768 million. However, the effectiveness of Operation Clean Sweep was
limited because units were not required to participate. We identified units that denied the
MRTs access to their excess equipment, did not comply with FRAGO requirements to sort
their excess equipment before the MRT’s arrival, and did not provide adequate logistical
support to the MRTs. Other units were not aware of Operation Clean Sweep or the MRT
mission and were wary about participating.

When units do not participate in Operation Clean Sweep, the risk of injury to personnel is
increased and visibility of equipment in the supply system is delayed. We identified
containers at the Theater Redistribution Center, Camp Arifjan, Kuwait, that were not
packed and shipped by MRTs, which were poorly packed and some contained weapons
and hazardous material, increasing the risk of injury to Theater Redistribution Center
personnel responsible for opening the containers. Other containers not packed or shipped
by MRTs held unserviceable non-repairable equipment and trash that should have been
destroyed or scrapped in Iraq. In addition, equipment in these containers was not
identified, processed, and brought to record until it reached Camp Arifjan delaying
visibility of serviceable equipment in the supply system that may be needed elsewhere,
including Afghanistan.

FRAGO 1022 Requirements
FRAGO 1022 defines the roles and responsibilities of MNC-I, ESCs, MRTs, and units in
Operation Clean Sweep, and provides instructions for each of those activities to achieve
their operational mission. The FRAGO describes unit and MRT responsibilities prior to
MRT arrival on the FOB, upon the MRT’s arrival on the FOB, and while the MRT is
assisting the units. See Appendix B for a flowchart of the unit and MRT responsibilities as
defined in the FRAGO. Once the MRT has completed assisting the units with identifying,
processing, and re-establishing accountability of excess equipment, the equipment is
shipped to the local Supply Support Activity, the Theater Redistribution Center, Camp
Arifjan, Kuwait, the Defense Reutilization and Marketing Office, or local landfills.

Recovered Excess Equipment
According to documentation provided by 13th ESC, the MRTs, as of April 10, 2010, had
identified and re-established accountability for 15,437 TEUs of excess equipment valued at


8
    TEUs are twenty foot container equivalent units used for shipping equipment.

                                                       5

about $768 million. MRTs returned equipment that was in short supply but high demand
by units to the supply system. This included gunner restraint systems, cargo restraint
netting, and basic issue items for Mine Resistant Ambush Protected vehicles.

Operational Effectiveness
Although the MRTs were able to recover 15,437 TEUs of excess equipment, the
effectiveness of Operation Clean Sweep was reduced because unit participation was
voluntary. Therefore, some units did not allow the MRTs access to their excess
equipment; comply with FRAGO requirements to sort their excess equipment before the
MRT’s arrival; or provide adequate logistical support to the MRTs. 9 Other units were not
aware of Operation Clean Sweep or the MRT mission and were wary about voluntarily
participating.

MRT Utilization
Units at two FOBs did not allow the MRTs access to their excess equipment. In December
2009, Camp Taji personnel from one unit directed the MRT personnel to leave their area of
operation, stating they could handle the processing of their excess equipment and did not
require the assistance of the MRT. We also received documentation showing that in
November 2009, MRT personnel left FOB Warrior after brigade command operations
threatened to remove the MRT from the FOB based on a misunderstanding of the MRT’s
mission and units stating they did not want to participate.

Sorting and Classifying Excess Equipment
Units did not always sort excess equipment by supply class and serviceability code, as
required by FRAGO 1022. We accompanied the MRTs to four FOBs (Speicher, Taji,
Kalsu, and Sykes) and at each of those FOBs the MRTs unpacked containers and
segregated the excess equipment by supply class and serviceability code, which should
have been accomplished by the unit prior to the MRT’s arrival. Additionally, units did not
always provide a list of excess equipment sorted by supply class and containing the
following information as required in the FRAGO: national stock numbers, nomenclature,
unit of issue, quantity, and part number. MRTs had to expend additional time and effort
unpacking containers, categorizing equipment, and determining serviceability before
processing the excess equipment.

Logistical and Operational Support
Units did not always assist the MRTs by providing local haul transport, such as fork-lifts
and flatbed trucks, as required by FRAGO 1022. At Speicher, flatbed trucks were not
available to move completed tri-walls 10 from a motor pool to a secure location.
The tri-walls remained in the motor pool overnight, where unauthorized personnel opened
one and some contents were removed, resulting in the MRTs having to re-inventory the


9
  Logistical support includes, but is not limited to coordination with personnel from the Defense Reutilization


Marketing Office and the Landfill and access to Material Handling Equipment. 

10
   Tri-walls are heavy-duty weather-resistant boxes with a plastic base that allows for movement by fork lift


or other material handling equipment.



                                                       6

equipment in the tri-walls. At Kalsu, it took additional time to move the unprocessed and
processed excess equipment because the pallet jack was not adequate for the task. At
Speicher, with a large area of operation, the MRT’s movement was hindered by the lack of
transportation. Specifically, three MRTs had to share two vehicles to perform site visits
while assisting units with the processing of their equipment. At Taji, the MRT team
manager had to spend time borrowing vehicles in order to maintain oversight of his
personnel and meet with units to arrange for the processing of their equipment.

Unit Awareness
There was a lack of unit awareness of the MRT’s mission and the support required.
FRAGO 1022 clearly states that MNC-I was to advocate command emphasis to ensure
units eliminate non-mission essential excess equipment. However, we found that
commands did not adequately communicate the MRT mission and goals, leaving units
apprehensive about participating with MRTs. Specifically, units:

      believed MRT personnel would direct them to retrograde all equipment, including
       mission essential equipment that would affect unit readiness,
      feared reprisal for having large quantities of excess equipment even though the
       units inherited the equipment from previous tenants, and
      believed that MRTs would reset the unit’s excess equipment without assistance or
       support from the unit.

Lack of unit awareness resulted in MRT personnel spending time promoting their services
instead of processing excess equipment. For example, at Speicher and Taji, the MRT team
manager or non-commissioned officer-in-charge spent a majority of their time promoting
MRT services. At Speicher, we observed the MRT non-commissioned officer-in-charge
stop an Army First Sergeant to explain the MRT mission in an attempt to schedule the unit
for participation. Additionally, the MRT non-commissioned officer-in-charge stated that
upon arrival at a FOB, he would obtain the base directory to begin calling unit
commanders and would stop any “E-7 and above” in an effort to get units to participate.
During another FOB visit, the MRT team manager stated that MRT personnel distributed
fliers in an attempt to get units to participate. MRT personnel stated that having to
promote their services was due to a lack of command emphasis concerning Operation
Clean Sweep.


Increased Risk
When units do not participate in Operation Clean Sweep, the risk of injury to personnel at
the receiving activity is increased. We identified containers at the Theater Redistribution
Center, Camp Arifjan, Kuwait, that were not packed and shipped by MRTs, which were
poorly packed, blocked, braced, and held equipment such as weapons and hazardous
material.




                                             7

Poorly packed containers led to damage of the                Figure 1. Damaged and
equipment inside the containers. In one container,           Leaking Hazardous Material
hazardous material was not properly packed and leaked
onto other items in the container. A second container
held batteries that were not properly packed for shipment
that leaked and created a hazardous material spill (See
Figure 1).

Other containers held items such as weapons (See
Figure 2) and dangerous material, increasing the risk of
injury to personnel at the Theater Redistribution Center,
Camp Arifjan, Kuwait. For example, in September 2009,
two civilians were accidentally stuck by atropine
                                                            Source: 593rd Sustainment Brigade, Container
injectors (See Figure 3) while sorting equipment and        Violation Report, November 7, 2009
were immediately sent to the local Theater Medical
Clinic for treatment.

                                                            Figure 3. Potentially Dangerous
Figure 2. Weapon in Container                               Equipment




Source: 593rd Sustainment Brigade, 
                        Source: 593rd Sustainment Brigade, Offender
Offender Report, September 15, 2009 
                       Report, September 15, 2009


Delayed Accountability and Visibility
When equipment was not processed or brought to record before shipment, it had to be
identified, processed, and brought to record at the Theater Redistribution Center,
Camp Arifjan, Kuwait. This delayed the accountability and visibility of serviceable
equipment in the supply system for use by units in other theaters of operation, to include
Afghanistan. In addition, units that did not properly sort, segregate, and pack excess
equipment for shipment caused the receiving activity to increase their level of effort to
ensure proper disposition. For example, when contractors receive a container of excess
equipment that has not been properly sorted and segregated, each item in the container




                                             8

must be inventoried, which increases the number of personnel and time needed to process
containers. (See Figures 4 and 5). Further, units shipped unserviceable, non-repairable
equipment to the Theater Redistribution Center, instead of disposing of the items at the
local Defense Reutilization Marketing Office or landfill. Shipping non-repairable
equipment limited space in containers that could be used to ship equipment for use in other
theaters of operation, and DOD paid to ship equipment that could have been destroyed in
Iraq.


  Figure 4. Unsorted Container                       Figure 5. Unsorted Container




  Source: 593rd Sustainment Brigade, Offender        Source: 593rd Sustainment Brigade, Container
  Report, September 15, 2009                         Violation Report, January 11, 2010




Management Actions
Throughout the audit, we conducted briefings with the 13th ESC so that when possible,
corrective action could be taken in response to our concerns. During the audit two
FRAGOs were issued, which addressed some of our concerns—USF-I FRAGO 0436,
“Operation Clean Sweep,” January 28, 2010, and 13th ESC FRAGO 0094, “Operation
Clean Sweep,” February 26, 2010.

USF-I FRAGO 0436
FRAGO 0436 superseded FRAGO 1022 and addresses the lack of command emphasis
with respect to unit support and understanding of the MRT mission. The FRAGO contains
guidance requiring FOB Commanders to notify each unit 1 week prior to the MRT’s
arrival. FRAGO 0436 also requires the FOB Commander to schedule time for each unit to
work with the MRTs, and to chair initial meetings with the MRT Officer-in-Charge,
non-commissioned officer-in-charge, unit commanders, property book officers, S4
(Command Operation), and supply personnel. We believe these meetings are sufficient to
enhance communication between the MRTs and the units and to reduce misunderstandings
of the MRT’s mission and required support. The meetings provide the MRTs an
opportunity to explain their mission, roles, and responsibilities relating to Operation Clean
Sweep.




                                                9

13th ESC FRAGO 0094
To support the Commander USF-I’s requirement under FRAGO 0436, the Commander,
13th ESC issued FRAGO 0094. FRAGO 0094 states that MRTs will obtain a complete list
of units down to the battalion level from each FOB commander to ensure that each unit is
contacted concerning the initial meeting with the MRT. During the initial meeting, the
MRT will require battalion representatives to sign one of two memorandums of agreement.
One memorandum is an agreement stating that units understand the MRT’s mission and
that the unit will participate, the other states that the unit declines to participate in the
operation. Although we agree with FRAGO 0094 requirements with respect to
communication with the FOB commanders and units, we do not agree with providing an
option to the battalion representatives to decline participation in Operation Clean Sweep.

Conclusion
Operation Clean Sweep provides USF-I with the ability to efficiently expedite the removal
of excess equipment from Iraq in conjunction with the Iraq drawdown. To ensure the
success of Operation Clean Sweep and the overall timely drawdown of equipment from
Iraq, it is vital that USF-I require 100 percent unit participation and full MRT support.
FRAGOs 0436 and 0094 address our concerns of lack of communication of the MRT
mission and required unit support. Therefore, we are not issuing recommendations
specific to those issues. However, FRAGO 0436 stops short of requiring 100 percent unit
participation and FRAGO 0094 allows units to decline participation in Operation Clean
Sweep. We believe that participation in Operation Clean Sweep should be mandatory and
units should use MRT assistance to identify, segregate, account, and turn-in non-mission
essential equipment.




                                             10 

Recommendations, Management Comments, and Our
Response
1.	 We recommend that the Commander, U. S. Forces–Iraq, revise and reissue
    Fragmentary Order 0436 to require mandatory participation in Operation Clean
    Sweep.

2.	 We recommend that the Director, U. S. Forces–Iraq, Joint Staff Logistics
    Directorate, issue Fragmentary Orders directing units identified by the 13th
    Sustainment Command (Expeditionary) in Recommendation 3.b. to participate in
    Operation Clean Sweep.

3.	 We recommend that the Commander, 13th Sustainment Command
    (Expeditionary),

       a.	 Revise and reissue Fragmentary Order 0094 to remove the option to
           decline to participate in Operation Clean Sweep.

       b.		 Provide the Director, U. S. Forces–Iraq, Joint Staff Logistics Directorate a
            list of units at each FOB that do not participate in Operation Clean Sweep.

U.S. Forces–Iraq, Joint Staff Logistics Directorate Comments
The Chief of Staff, U.S. Central Command endorsed and forwarded comments from the
U.S. Forces–Iraq, Joint Staff Logistics Directorate. The Deputy Director, U.S. Forces–
Iraq, Joint Staff Logistics Directorate, responding for U.S. Forces–Iraq and the
13th Sustainment Command (Expeditionary), agreed with our recommendations. The
Deputy stated that Fragmentary Orders 0046 and 0094 will be revised to remove the option
for units to decline participation in Operation Clean Sweep. The Deputy also stated that
the Commander, U.S. Forces–Iraq will enforce participation by units identified by the
Commander, Sustainment Command (Expeditionary) as being non-compliant with the
reissued Fragmentary Order 0094.

Our Response
The comments of the Deputy Director, U.S. Forces–Iraq, Joint Staff Logistics Directorate
are responsive. No further comments are required.




                                           11 

Appendix A. Scope and Methodology
We conducted this performance audit from August 2009 through April 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We coordinated with officials from the U.S. Army Central Command, Army Materiel
Command; USF-I; Multi-National Force–Iraq; MNC-I; 402nd Army Field Support Brigade;
and the 13th ESC. We coordinated with personnel from the Army Audit Agency, who were
conducting an audit that involved a portion of the plans for the drawdown of excess
equipment.

We obtained and reviewed DOD Regulations, MRTs standard operating procedures,
Container Violation (Offender) Reports, Container Detail Reports, and Multi-National
Force–Iraq and MNC-I Operation Orders and FRAGOs.

We conducted interviews with the personnel from the FOB Command, tenant units, and
MRTs. See table A-1 for a listing of the FOBs visited.

Table A-1. Listing of FOB Visits Conducted for the Observation of MRT Operations

     MRT Command                  FOB Visit Location             FOB Visit Date

15th Sustainment Brigade                Speicher                Dec. 15 – 19, 2009
96th Sustainment Brigade                  Taji                  Dec. 28 – 31, 2009
                                                                Dec. 19 – 21, 2009
36th Sustainment Brigade                 Kalsu
                                                                Dec. 28 – 29, 2009
15th Sustainment Brigade                 Sykes                  Jan. 20 – 22, 2010

We gained an understanding of the MRT’s procedures by reviewing FRAGO 1022 and
standard operating procedures. We then tested the procedures during our FOB visits by
observing the MRTs at work and interviewing MRT personnel on the policies and
procedures for processing excess equipment. To determine the condition of the excess
equipment shipped to Camp Arifjan, Kuwait, we interviewed personnel from the 593rd
Sustainment Brigade and visited the Theater Redistribution Center, Camp Arifjan to
observe and document the contents of containers shipped from units and MRTs in the Iraqi
Theater.




                                           12 

Use of Computer-Processed Data
As part of our audit, we reviewed plans for the drawdown of equipment from Iraq to
determine if the plans were comprehensive, viable, and executable. The data was provided
in the form of e-mails, PowerPoint presentations, .pdf files, and Word documents used in
the normal communication process. Our findings, conclusions, and recommendations were
not based solely on analysis of these documents, but included visual observation of MRT
procedures. Computer-processed data was used but did not significantly impact our review
objectives, nor did it materially affect our findings, conclusions, or recommendations.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the Army Audit
Agency have issued seven reports discussing topics related to the Iraq drawdown and
excess equipment. Specifically, there are two reports dealing with overall planning for the
drawdown from Iraq, two reports related to the disposition of excess property, and three
reports dealing with the management of shipping containers in Southwest Asia.

GAO
GAO Testimony No. GAO-09-380T, “Iraq and Afghanistan – Availability of Forces,
Equipment, and Infrastructure Should Be Considered in Developing U.S. Strategy and
Plans,” February 12, 2009

GAO Report No. GAO-08-930, “Operation Iraqi Freedom – Actions Needed to Enhance
DOD Planning for Reposturing of U.S. Forces from Iraq,” September 10, 2008

GAO Report No. GAO-06-943, “DOD Excess Property – Control Breakdowns Present
Significant Security Risk and Continuing Waste and Inefficiency,” July 25, 2006

Army
A-2008-0287-ALL, “Followup Audit of Asset Visibility and Container Management –
Operation Iraqi Freedom – US Central Command,” September 30, 2008

A-2008-0139-ALE, “Disposal of Property at Defense Reutilization and Marketing Service
Sites in Germany,” May 7, 2008

A-2008-0098-ALL, “Audit of Management of Shipping Containers in Southwest Asia –
Iraq,” April 3, 2008

A-2005-0197-ALE, “Asset Visibility and Container Management – Operation Iraqi
Freedom,” July 5, 2005




                                            13 

Appendix B. Fragmentary Order 1022
            Requirements




                                   J
                                   i5
                                   s'"
                     I
                     ~
                                   i
                                   i,..
                     i:


   {)
                     I
   .~~  ~
         ~
         2".

                                   f'!:   ~ lf~
   13 [
    .0
    o
    o "·
    :::.I!.'l-
                 .
                     lo>
                     ~
                     ~
                     ~
                                     •
                                          I.fih
                                             h.
    ;; _!Z"
   "'s
                     5:2                   H
                                     •
         [(          ~               •
                     ~
    0                ~             ~       ~
                     ~
   .@!
   In I~
   "."
   ~-"               -
                     <")
                     ~


                     ~.,
                     (
                     .~

                     (;3)                  Hi.
                                           ~l
                     5'
   ~g6
   Q..:". ~


     '"
                     =
                                           it
                            14 

U.S. Central Command Comments



                         Ui'<lTED STATES
                         UNITED   STATL:S CE:\TR
                                          CE:-;TR AL COMyl
                                                     CO M\I ,A\ NU
                                                                ND
                                OFFI(,[ O.
                               OFFICE             CHIEF OF SHrr
                                             THE CIIIEF
                                          OFTHE               ST .rr
                              7J 15 SO
                              711:'    L'TH
                                    SOC"                  Hl111IFVARn
                                            BOl'W.·\HY BtH1LFVARn
                                         TH BOt'ND,\RY
                         M·\('DH.I  AlRHmCl'Ii\."
                         M·\L'DIIJ. AiR  H>HC'I, H\'I I-l ORillA J.v\~1 <~IOI
                                                      Fl()Rn)A::tl(I~I<Wll




                                                                                14 May 2010

FOR: DEPARTMENT OF DEFENSE INSP ECTOR
                           INSPECTO R GENERAL

SUB JECT:: United Sta
SUBJECT           States
                      tes Central Command Response to Department of Defense
           Inspector General Draft Report of Audit, "DrawdO\
                                                    "Drawdowvn and Reset of
           Equipment in Iraq - Operati on CJean
                                    ation              (Project
                                          Clean Sweep (Pro ject No. D2009-
           DOOOJB -0280.000)
                      0280.ooo)

I. Th ank you for the opportun
1.                        rtunity     respond
                               ity to re spond to the recommendations presented in the
DODIG draft report.

2. USF-I concurs with the recommendations c onta
                                            ontaiined in [this report.

                           •••••••••
                                   ••• USCENTCOM Inspector




                                         ~
                                                      Iu.~
                                                      Iu_~
                                                 AYW.HOOD
                                                 AY  W. HOOD
                                                 Major General,
                                                       General. U.S. Anny
                                                                     Army

Attachments
A ttachments :
I. USF
    USF-J
        -J Cover Memo
2. USF·I
    USF-J Response




                                                15 

       U.S. Forces–Iraq Comments 



                                    HE ADQUARTERS
                                    HEADQUARTERS
                             UN
                             UNIITED
                                 TED STATE S
                                           S FORCES .- IRAQ
                                    BAGHDAD, IRAQ
                                   APO AE 09342-1400
           REPlYTO
           ATTENllON OF



USFI-J4
USF I-J4                                                             04 MAY 2010


MEMORANDUM FOR CE
               CENNTCOM IG

SUBJECT: CT-(0419-001) Orawdown and Reset of Equipment in Iraq- Operation Clean
Sweep.


1. USF-I
   USF-I J4 has revie
                reviewed
                      wed DODIG Projec
                                   Projectt D2009-0000JB-0280
                                            D2009-DOOOJB-0280.000 .000,, Drawdo
                                                                         Drawdown
                                                                                wn and
Reset of Equipment and prov
                        proviides
                              des the attached co
                                                com
                                                  mmme nt
                                                       ntss to the Draft Report
                                                                         Report..

_
. _
  . ._
     - email:
       em ail: • • • • • • • • • • • • • rrSvOIP:
                                           SVOIP:




Encl
En cl::
USF-
USF-II J4 Comments to the Draft Report




                                            16 

                                       OOOIG DRAFT


                        OOOIG Project 02009 - 0000l8
                                              0000]B-- 0280.000

        "Drawdown
         Drawdown and Reset of Equipment in Iraq-Operation Clean Sweep"


                                       COMMENTS
                                  TO THE DRAFT REPORT

On Page 11 of the draft report, DODIG recommends the following:
                                                     following :

RECOMMENDATION 1. DODIG recommends that the Commander, United States Forces­
Iraq, revise and reiss ue Fragmentary Order 0436 to require mandatory participation in
                 reissue
Operation Clean Sweep.
                 Sweep .

RESPONSE: USF-I J4 will re -iss
                           - issue
                                ue Fragmentary Order 0436 to require mandatory
participation.


RECOMMENDATION 2. DODIG recommends that the Director, United States Forces-Iraq
J4, issue Fragmentary Orders directing units identified by the 13th Sustainment Command
(Expeditionary) in Recommendation 3.b. to participate in Operation Clean Sweep
                                                                           Sweep..

RESPONSE:: USF-I will enforce participation in Operation Clean Sweep if any units are
RESPONSE
identified by the ESC Commander as non - co
                                         compliant
                                            mpliant with the new USF- I Fragmentary Order
                                                                                    Order..


                      DODIG recommends that the Commander, 13th Sustainment
RECOMMENDATION 3. DODlG
Command (Expeditionary);

a. Revise and reissue Fragmentary Order 0094 to remove the option to decline to
participate in Operation Clean Sweep.

b. Provide the Director, United States Forces-Iraq J4 a list of units at each FOB that do not
participate in Operation Clean Sweep.
                               Sweep .


RESPONSE: USF-I will w ill re-issue Fragmentary Order 0094 removing the option to decline
participation in Operation Clean Sweep.




APPROV ED BY
APPROVED   BY::                                           PREPAR ED BY:
                                                          PREPARED
GUSTAVE PERNA
BG, USA                                                   LTC,USA         _
USF- Jj J4                                                USF-j
                                                          USF- J J4 JLOC,




                                              17 

